CERTIFICATE OF SERVICE
No. 19-348
St. James School,
Petitioner,
v.
Darryl Biel, as Personal Representative of the Estate of Kristen Biel,
Respondent.
I, Eric D. McArthur, do hereby certify that, on this seventeenth day of
October, 2019, I caused three copies and an electronic copy of the Brief of Amici
Curiae General Conference of Seventh-day Adventists and Jewish Coalition for
Religious Liberty in Support of Petitioner in the foregoing case to be served by
overnight commercial carrier, and by email, on the following parties:
ERIC CHRISTOPHER RASSBACH
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, N.W.
Suite 700
Washington, D.C. 20036
erassbach@becketlaw.org
(202) 955-0095
Counsel for Petitioner

JENNIFER ANNE LIPSKI
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
jennifer@jmllaw.com
(818) 610-8800
Counsel for Respondent
/s/ Eric D. McArthur
ERIC D. MCARTHUR
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

